U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Marcus Broadway v. United States of America,
S.Ct. No. 20-836

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
16, 2020, and placed on the docket on December 22, 2020. The government’s response is due on
January 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0836
BROADWAY, MARCUS
USA

BOYD GARRIOTT
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4487
BGARRIOTT@WILEY.LAW
JARED ALAN MCCLAIN
THE NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET NW
SUITE 450
WASHINGTON, DC 20036
856-305-0034
JARED.MCCLAIN@NCLA.ONMICROSOFT.CO
M

